Affidavit of Service
Samuel H. Sloan, being duly sworn, deposes and says that on March
19, 2020 he mailed three copies of the within petition for a writ of
certiorari to all counsel and respondents at the following addresses:
Catherine H. Kennedy
Attorney for Creighton W. Sloan
Turner Padget Graham & Laney PA
P. O. Box 1473
1901 Main Street, 17th Floor
Columbia SC 29202
South Carolina Supreme Court
1231 Gervais Street
Columbia, SC 29201
Sue H. Roe
Aiken County Probate Court
109 ParkAve SE
Aiken, SC 29801
Creighton W. Sloan
102 Indian Creek Trail
Aiken SC 29803

Samuel H. Sloan

RECEIVED
mar 2 3 2020

to b4foije me
ue this 19th
ch, 20 20
ay/of
v

Sj

feviL/S^-MA
NOTARY/PUBLIC

Jose F. Vargas
NOTARY PUBLIC, STATE OF NEW YORK
Registration No. 01VA6159666
Qualified in Bronx County
Commission Expires January 22nd, 2023

